HHS/OIG, Audit -"Review of California's Internal Controls Over Costs Claimed For Medicaid Personal Care Services,"(A-09-04-00036)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of California's Internal Controls Over Costs Claimed For Medicaid Personal Care Services," (A-09-04-00036)
December 8, 2004
Complete
Text of Report is available in PDF format (117 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the California State Department of Health Services (State) had internal
controls to ensure that costs claimed for the Medicaid Personal Care Services program for the period July 1, 2002, through
June 30, 2003, were in accordance with Federal laws and regulations.  Based on our limited review, we found that the
State had internal controls to ensure that costs claimed for the Medicaid Personal Care Services program were in accordance
with Federal laws and regulations.  In addition, the three counties we examined had internal controls to review and
authorize individual provider time sheets related to personal care services.